Audit Report




OIG-13-004
Report on the Bureau of the Public Debt Trust Fund Management
Branch Schedules for Selected Trust Funds as of and for the
Year Ended September 30, 2012
November 6, 2012




Office of
Inspector General
Department of the Treasury
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE OF                                 November 6, 2012
INSPECTOR GENERAL




            MEMORANDUM FOR DAVID A. LEBRYK, COMMISSIONER
                           BUREAU OF THE FISCAL SERVICE

            FROM:                   Michael Fitzgerald
                                    Director, Financial Audits

            SUBJECT:                Report on the Bureau of the Public Debt
                                    Trust Fund Management Branch Schedules for
                                    Selected Trust Funds as of and for the
                                    Year Ended September 30, 2012


            I am pleased to transmit the attached Report on the Bureau of the Public Debt Trust
            Fund Management Branch (TFMB) Schedule of Assets and Liabilities and the related
            Schedule of Activity of Selected Trust Funds as of and for the year ended
            September 30, 2012 (the Schedules). Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm,
            performed an examination of TFMB’s assertions pertaining to the Schedules as of
            and for the year ended September 30, 2012. These Schedules relate solely to the
            functions performed by TFMB as custodian of the following Trust Funds’ monies and
            investments:

                    •   Federal Supplementary Medical Insurance Trust Fund,
                    •   Federal Hospital Insurance Trust Fund,
                    •   Highway Trust Fund,
                    •   Airport and Airway Trust Fund,
                    •   Hazardous Substance Superfund Trust Fund,
                    •   Leaking Underground Storage Tank Trust Fund,
                    •   Oil Spill Liability Trust Fund,
                    •   Harbor Maintenance Trust Fund,
                    •   Inland Waterways Trust Fund, and
                    •   South Dakota Terrestrial Wildlife Habitat Restoration
                        Trust Fund

            The contract required that the examination be performed in accordance with
            generally accepted government auditing standards and the attestation standards
            established by the American Institute of Certified Public Accountants.
Page 2


In its examination of TFMB’s assertions pertaining to the Schedules, KPMG LLP,
found that TFMB’s assertions (which are included in the Independent Auditors’
Report on Management’s Assertions) are fairly stated, in all material respects,
based on the measurement and disclosure criteria set forth in note 1 to the
Schedules.

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an examination of assertions in accordance with generally accepted
government auditing standards, was not intended to enable us to express, and we
do not express, an opinion on TFMB’s assertions. KPMG LLP is responsible for the
attached auditors’ report dated November 6, 2012, and the conclusions expressed
in the report. However, our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Mark S. Levitt, Manager, Financial Audits at
(202) 927-5076.

Attachment

cc:   Richard L. Gregg
      Fiscal Assistant Secretary
            U. S. DEPARTMENT OF THE TREASURY
BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
            Schedules and Notes for Selected Trust Funds
           As of and for the Year Ended September 30, 2012
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH


                                              Table of Contents



                                                                      Page

I     Independent Auditors’ Report on Management’s Assertions           1

II    Schedule of Assets and Liabilities of Selected Trust Funds        4

III   Schedule of Activity of Selected Trust Funds                      7

IV    Notes to the Schedules of Selected Trust Funds                   10
I.   INDEPENDENT AUDITORS’ REPORT ON
        MANAGEMENT’S ASSERTIONS
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                     Independent Auditors’ Report on Management’s Assertions


Inspector General, U.S. Department of the Treasury, and
Commissioner, Bureau of the Fiscal Service (formerly Bureau of the Public Debt):

We have examined the following assertions of the Trust Fund Management Branch (TFMB) of the Bureau
of the Public Debt (BPD) of the U.S. Department of the Treasury (Treasury) with respect to the applicable
accounts of each trust fund included on the accompanying Schedule of Assets and Liabilities of Selected
Trust Funds as of September 30, 2012, and the related Schedule of Activity of Selected Trust Funds for the
year then ended (Schedules):

•   Fund balance with Treasury is reported based on the balance reported by Treasury’s Financial
    Management Service (FMS) in the Central Accounting and Reporting System (CARS)/Government-
    wide Accounting and Reporting Modernization Project (GWA) Account Statement and reconciling
    transactions identified and recorded by TFMB.

•   Interest receivables are calculated and reported by TFMB based on the investment terms received and
    recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment confirmations and
    monthly statements of account.

•   Other receivables are reported based on amounts received and recorded by TFMB from the program
    agencies responsible for the respective trust fund activity.

•   Investments, net are calculated and reported at net cost based on the cost and premium/discount
    amounts reported to TFMB in the investment confirmations and monthly statements of account
    received from FIB.

•   The market value of investments is calculated and reported by TFMB using the recorded investment
    cost and the market rates published in the September 30, 2012, Treasury Quote file and unrealized
    gains and losses are calculated and reported by TFMB as the difference between the market value and
    the investments, net.

•   Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.

•   Available program agency equity is reported based on amounts received and recorded by TFMB from
    the program agencies responsible for the respective trust fund activity.

•   Other program agency equity is calculated and reported by TFMB as the difference between the assets
    of the trust fund and the available program agency equity received and recorded by TFMB from the
    program agencies responsible for the respective trust fund activity.



                                                                     2
                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
•   Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
    monthly statements of account and accrued interest and amortization calculated by TFMB.
    Amortization of any premiums and discounts on investments is calculated and reported by TFMB
    based on the investment terms reported to TFMB by FIB using the straight-line method for investments
    with a term equal to or less than one year and using the level yield method which approximates the
    interest method for investments with a term of greater than one year.

•   Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
    and other income are reported based on the amounts received and recorded by TFMB from FMS and
    the program agencies responsible for the respective trust fund activity.

•   Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
    recorded by TFMB from Treasury's Office of Tax Analysis, Internal Revenue Service, FMS, and/or
    U.S. Customs and Border Protection.

•   Transfers to program agencies are calculated and reported based on the disbursement request amounts
    received and recorded by TFMB from the program agencies responsible for the respective trust fund
    activity and the disbursement amounts returned and recorded by TFMB from the program agencies
    responsible for the respective trust fund activity.

•   Reimbursements to Treasury bureaus and the General Fund are reported based on the disbursement
    request amounts received and recorded by TFMB from various Treasury bureaus, including BPD and
    FMS.

TFMB’s management is responsible for the assertions. Our responsibility is to express an opinion on these
assertions based on our examination. Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants (AICPA) and the standards
applicable to attestation engagements contained in Government Auditing Standards issued by the
Comptroller General of the United States and, accordingly, included examining on a test basis, evidence
supporting the assertions stated above and performing such other procedures as we considered necessary in
the circumstances. We believe that our examination provides a reasonable basis for our opinion.

In our opinion, TFMB’s assertions referred to above relating to the applicable accounts of each trust fund
reported on the accompanying Schedule of Assets and Liabilities of Selected Trust Funds as of
September 30, 2012, and the related Schedule of Activity of Selected Trust Funds for the year then ended,
are fairly stated, in all material respects, based on the measurement and disclosure criteria set forth in
Note 1 to the Schedules of selected trust funds.

This report is intended solely for the information and use of the management of the Bureau of the Fiscal
Service, program agencies responsible for their respective trust fund activity, the U.S. Department of the
Treasury Office of Inspector General, the Office of Management and Budget, the Government
Accountability Office, and the U. S. Congress, and is not intended to be and should not be used by anyone
other than these specified parties.




November 6, 2012




                                                      3
II.   SCHEDULE OF ASSETS AND LIABILITIES OF
           SELECTED TRUST FUNDS
                                               U.S. DEPARTMENT OF THE TREASURY
                                   BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2012


                                           Federal
                                        Supplementary            Federal                                                        Hazardous
                                           Medical               Hospital                                      Airport          Substance
                                          Insurance             Insurance                 Highway            and Airway         Superfund
                                         Trust Fund             Trust Fund               Trust Fund          Trust Fund         Trust Fund
Assets:
  Fund balance with Treasury        $    2,331,398,069           981,924,814             1,750,744,841         442,965,463          1,723,719   
  Interest receivables                     649,043,599         2,543,293,368                    27,695          48,825,156          4,529,609   
  Other receivables                          —                   504,700,000                 —                   —                  —    
  Investments, net                      69,324,408,000       228,292,287,000             9,970,173,445      10,424,961,000      3,300,600,460   
       Total assets                     72,304,849,668       232,322,205,182          11,720,945,981        10,916,751,619      3,306,853,788   
Liabilities:
  Program agency equity:
     Available                          30,536,465,540        25,528,469,201          11,720,945,981         4,532,545,295      3,171,409,193   
     Other                              41,768,384,128       206,793,735,981               —                 6,384,206,324        135,444,595   
     Total program agency equity        72,304,849,668       232,322,205,182          11,720,945,981        10,916,751,619      3,306,853,788   
       Total liabilities            $   72,304,849,668       232,322,205,182          11,720,945,981        10,916,751,619      3,306,853,788   




                                                                           5                                                          (Continued)
                                             U.S. DEPARTMENT OF THE TREASURY
                                 BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                              Schedule of Assets and Liabilities of Selected Trust Funds
                                                              As of September 30, 2012

                                                                                                                              South Dakota
                                             Leaking                                                                           Terrestrial
                                          Underground               Oil Spill             Harbor              Inland         Wildlife Habitat
                                          Storage Tank              Liability            Maintenance        Waterways          Restoration
                                           Trust Fund              Trust Fund            Trust Fund         Trust Fund         Trust Fund
Assets:
  Fund balance with Treasury         $       (2,716,760)               6,518,061            96,103,481        4,290,266           —    
  Interest receivables                        2,441,511               10,708,723            32,133,535              136             773,496   
  Other receivables                           —                        —                    —                 —                   —    
  Investments, net                        1,312,659,348            2,587,000,592         7,031,035,874       48,977,843         126,859,753   
        Total assets                      1,312,384,099            2,604,227,376         7,159,272,890       53,268,245         127,633,249   


Liabilities:
  Program agency equity:
     Available                               98,163,093              237,229,464            —                 7,332,348          17,633,249   
     Other                                1,214,221,006            2,366,997,912         7,159,272,890       45,935,897         110,000,000   
     Total program agency equity          1,312,384,099            2,604,227,376         7,159,272,890       53,268,245         127,633,249   
        Total liabilities            $    1,312,384,099            2,604,227,376         7,159,272,890       53,268,245         127,633,249   


See accompanying notes to the schedules of selected trust funds.




                                                                              6
III. SCHEDULE OF ACTIVITY OF
      SELECTED TRUST FUNDS
                                                   U.S. DEPARTMENT OF THE TREASURY
                                       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                       Schedule of Activity of Selected Trust Funds
                                                         For the Year Ended September 30, 2012


                                                  Federal
                                               Supplementary              Federal                                                        Hazardous
                                                  Medical                 Hospital                                      Airport          Substance
                                                 Insurance               Insurance               Highway              and Airway         Superfund
                                                Trust Fund              Trust Fund              Trust Fund            Trust Fund         Trust Fund
Revenues:
  Interest revenue                         $     2,889,343,044         10,931,785,120                 7,324,216         224,627,660         26,879,229   
  Penalties, fines, and
     administrative fees                            —                   2,007,165,112            22,103,559               —                  1,176,630   
  Transfers in from program agencies           210,507,561,745         20,034,869,464         2,485,215,294               —              1,075,366,947   
  Tax revenues and adjustments                   2,807,804,863        204,751,764,942        40,146,394,109          12,554,678,138           (104,721)  
  Tax refunds                                       —                      —                      —                     (22,463,628)         —    
  Premiums                                      69,376,291,087          3,634,461,511             —                       —                  —    
  Cost recoveries                                   —                      —                      —                       —                 45,412,935   
  Other income                                       1,044,055             23,096,402             —                       —                  —    
             Total revenues                    285,582,044,794        241,383,142,551        42,661,037,178          12,756,842,170      1,148,731,020   
Disposition of revenues:
  Transfers to program agencies                286,387,386,795        258,277,545,653        49,614,543,593          11,447,497,665      1,419,037,804   
  Reimbursements to Treasury bureaus
     and the General Fund                              504,046            145,962,143                 —                   —                  —    
             Total disposition of
               revenues                        286,387,890,841        258,423,507,796        49,614,543,593          11,447,497,665      1,419,037,804   
             Net increase/(decrease)
               in program agency
               equity                      $      (805,846,047)       (17,040,365,245)        (6,953,506,415)         1,309,344,505      (270,306,784)  




                                                                            8                                                                  (Continued)
                                                    U.S. DEPARTMENT OF THE TREASURY
                                        BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                                         Schedule of Activity of Selected Trust Funds
                                                           For the Year Ended September 30, 2012


                                                                                                                                      South Dakota
                                                       Leaking                                                                         Terrestrial
                                                    Underground             Oil Spill             Harbor              Inland         Wildlife Habitat
                                                    Storage Tank            Liability            Maintenance        Waterways          Restoration
                                                     Trust Fund            Trust Fund            Trust Fund         Trust Fund         Trust Fund
Revenues:
  Interest revenue                              $       60,572,241           18,608,641            112,437,515           44,296           3,424,563   
  Penalties, fines, and
     administrative fees                                —                    53,151,145              —                —                   —    
  Transfers in from program agencies                    —                     —                      —                —                   —    
  Tax revenues and adjustments                        170,496,761           497,194,149          1,539,603,289       89,238,644           —    
  Tax refunds                                           —                     —                      —                —                   —    
  Premiums                                              —                     —                      —                —                   —    
  Cost recoveries                                       —                    34,649,510              —                —                   —    
  Other income                                         67,468,186             —                      —                —                   —    
              Total revenues                          298,537,188           603,603,445          1,652,040,804       89,282,940           3,424,563   
Disposition of revenues:
  Transfers to program agencies                      2,522,500,000          293,418,260            912,519,000       81,336,093           8,000,000   
  Reimbursements to Treasury bureaus
     and the General Fund                                —                        165,000               —             —                   —    
              Total disposition of
                revenues                             2,522,500,000          293,583,260            912,519,000       81,336,093           8,000,000   
              Net increase/(decrease)
                in program agency
                equity                          $   (2,223,962,812)         310,020,185            739,521,804        7,946,847          (4,575,437)  


See accompanying notes to the schedules of selected trust funds.




                                                                              9
IV. NOTES TO THE SCHEDULES OF
      SELECTED TRUST FUNDS
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                              September 30, 2012



(1)   Summary of Significant Accounting Policies
      (a)   Reporting Entity
            The accompanying Schedule of Assets and Liabilities of Selected Trust Funds and related Schedule
            of Activity of Selected Trust Funds (Schedules) pertain to the aspects of certain Treasury-managed
            trust funds that are serviced by the Trust Fund Management Branch (TFMB) of the Bureau of the
            Public Debt (BPD) of the U.S. Department of the Treasury (Treasury). The trust funds were created
            by legislation enacted by the U.S. Congress.

            TFMB acts as a service organization which processes receipts, disbursements, and transfers related
            to the trust funds based upon information received and recorded by TFMB from Treasury's Office of
            Tax Analysis (OTA) and the Internal Revenue Service (IRS), U.S Customs and Border Protection,
            the program agencies responsible for their trust fund activity, Treasury’s Financial Management
            Service (FMS), and other Treasury bureaus. As part of its functions, BPD also manages the
            investments, maintains related accounting records and supporting documentation, and reports
            financial activity. The financial activity reported in these Schedules is limited to the activities
            performed by TFMB.

            The program agencies are responsible for administering, regulating, and monitoring the program
            activities funded by the trust funds. The program agencies make all decisions regarding dispositions
            from the trust funds. As such, these Schedules do not include information regarding the ultimate
            disposition of amounts transferred from the trust funds to the program agencies.

            Effective October 7, 2012, BPD was consolidated with FMS into a new bureau, the Bureau of the
            Fiscal Service.

      (b)   Basis of Presentation
            The Schedules have been prepared to report the assets and liabilities of the trust funds under the
            function performed by TFMB, and the related activity, in accordance with the measurement and
            criteria discussed below.

      (c)   Basis of Accounting
            The Schedules are prepared using the accrual basis of accounting in accordance with U.S generally
            accepted accounting principles.

      (d)   Fund Balance with Treasury
            The trust funds do not maintain cash in commercial bank accounts. Treasury processes cash receipts
            and disbursements. Fund balance with Treasury represents net revenue, disposition of revenue, and
            investment activity. Fund balance with Treasury is reported based on the balance reported by
            Treasury’s FMS in the Central Accounting and Reporting System (CARS)/Government-wide
            Accounting and Reporting Modernization Project (GWA) Account Statement and reconciling
            transactions identified and recorded by TFMB. A year-end tax adjustment (see Note 1j) caused a
            fund to report a negative Fund balance with Treasury.

                                                      11
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                             Notes to the Schedules of Selected Trust Funds
                                          September 30, 2012



(e)   Interest Receivables
      Interest receivables are calculated and reported by TFMB based on the investment terms received
      and recorded by TFMB from BPD’s Federal Investments Branch (FIB) in the investment
      confirmations and monthly statements of account.

(f)   Other Receivables
      Other receivables are reported based on amounts received and recorded by TFMB from the program
      agencies responsible for the respective trust fund activity.

(g)   Investments, Net
      Pursuant to authorizing legislation, the Secretary of the Treasury shall invest, at the direction of the
      program agencies, such portion of the trust fund balances as is not, in the judgment of the program
      agencies, necessary to meet current withdrawals. Such investments shall be in non-marketable par
      value or non-marketable market-based securities as authorized by legislation. Par value securities are
      special issue bonds or certificates of indebtedness that bear interest determined by legislation or the
      Treasury. Market-based securities are Treasury securities that are not traded on any securities
      exchange, but mirror the prices of marketable securities with similar terms. Both par value and
      market-based securities are issued and redeemed by FIB.

      TFMB follows Treasury fiscal investment policy guidelines. TFMB determines the term of the
      securities purchased based on direction provided by the program agencies. The securities are
      acquired and held in the name of the Secretary of the Treasury for the trust funds. The interest on and
      proceeds from the sale or redemption of any security held for the trust funds are credited to the
      appropriate trust fund. Investments are selected for liquidation based on the following order: earliest
      maturity date, lowest prevailing interest rate, and first security in first security out.

      Investments, net are calculated and reported at net cost based on the cost and premium/discount
      amounts reported to TFMB in the investment confirmations and monthly statements of account
      received from FIB. The market value of investments is calculated and reported by TFMB using the
      recorded investment cost and the market rates published in the September 30, 2012, Treasury Quote
      file (the last work day of the fiscal year) and unrealized gains and losses are calculated and reported
      by TFMB as the difference between the market value and the investments, net. The investments are
      exposed to various risks such as interest rate and market risks. Such risks, and the resulting
      investment market values, may be influenced by changes in economic conditions and market
      perceptions and expectations. Accordingly, it is at least reasonably possible that material changes to
      the market values of the investments will occur in the near term.

(h)   Available and Other Program Agency Equity
      Program agency equity is calculated and reported by TFMB based on the assets of the trust fund.
      Program agency equity consists of available and other program agency equity.

      Available program agency equity represents the amount of program agency equity that may be
      transferred as of September 30, 2012, to the program agencies at the request of the program agencies.

                                                  12
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                           Notes to the Schedules of Selected Trust Funds
                                         September 30, 2012



      Available program agency equity is reported based on amounts received and recorded by TFMB
      from the program agencies responsible for the respective trust fund activity.

      The remaining balance of program agency equity is reported as other program agency equity. Other
      program agency equity is calculated and reported by TFMB as the difference between the assets of
      the trust fund and the available program agency equity received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity.

(i)   Interest Revenue
      Interest revenue is reported based on the amounts received and recorded by TFMB from FIB in the
      monthly statements of account and accrued interest and amortization calculated by TFMB.
      Amortization of any premiums and discounts on investments is calculated and reported by TFMB
      based on the investment terms reported to TFMB by FIB using the straight-line method for
      investments with a term equal to or less than one year and using the level yield method which
      approximates the interest method for investments with a term of greater than one year.

(j)   Revenues
      Pursuant to authorizing legislation, revenue activity recorded in the trust funds consists primarily of
      interest, penalties, fines, administrative fees, transfers in from program agencies, tax revenues, tax
      adjustments, tax refunds, premiums, cost recoveries, and other income, which are transferred from
      the General Fund of the Treasury or from program agencies to the trust funds.

      Penalties, fines, administrative fees, transfers in from program agencies, premiums, cost recoveries,
      and other income are reported based on the amounts received and recorded by TFMB from FMS and
      the program agencies responsible for the respective trust fund activity.

      Tax revenues, tax adjustments, and tax refunds are reported based on the amounts received and
      recorded by TFMB from the OTA, IRS, FMS, and/or U.S. Customs and Border Protection. OTA
      estimates the tax revenues each month based on projected tax receipts and provides the estimates to
      FMS. FMS transfers the amount of estimated taxes to the trust fund accounts. The IRS or program
      agencies generally certify the tax revenues within two quarters after the taxes are estimated
      (e.g., first quarter estimate is certified in the third quarter) and provide this certification to FMS.
      FMS calculates the tax adjustment as the difference between the taxes estimated by OTA and taxes
      certified by the IRS or program agencies and adjusts the trust fund accounts accordingly. FMS
      reports the tax adjustments to TFMB. As a result of the timing of the certifications, the Schedule of
      Activity includes certified tax revenues (i.e., actual tax revenues) for the first three quarters of the
      fiscal year and estimated tax revenues for the last quarter of the fiscal year.

(k)   Transfers to Program Agencies
      Dispositions from the trust funds are made in accordance with the authorizing legislation to the
      program agencies, which are responsible for the ultimate disposition of such funds, to cover program
      administration and related costs as defined by law. Transfers to program agencies are calculated and
      reported based on the disbursement request amounts received and recorded by TFMB from the
      program agencies responsible for the respective trust fund activity and the disbursement amounts
                                                  13
                           U.S. DEPARTMENT OF THE TREASURY
               BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                              September 30, 2012



             returned and recorded by TFMB from the program agencies responsible for the respective trust fund
             activity.

       (l)   Reimbursements to Treasury Bureaus and the General Fund
             In the case of certain trust funds, BPD and FMS are authorized by law to receive direct
             reimbursement from the trust funds for certain administrative expenses. Also, the Secretary of the
             Treasury is directed by law to charge trust funds to reimburse the General Fund for administrative
             expenses incurred by other Treasury bureaus in performing activities related to administering the
             trust funds. These reimbursement amounts are determined by Treasury based on its assessment of the
             estimated cost of the services provided. Reimbursements to Treasury bureaus and the General Fund
             are reported based on the disbursement request amounts received and recorded by TFMB from
             various Treasury bureaus, including BPD and FMS.

(2)    Investments, Net
       Federal Supplementary Medical Insurance Trust Fund
       Investments at September 30, 2012, are non-marketable, par value intra-governmental securities with a
       cost of $69,324,408,000.

       Federal Hospital Insurance Trust Fund
       Investments at September 30, 2012, are non-marketable, par value intra-governmental securities with a
       cost of $228,292,287,000.

       Highway Trust Fund
       Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
       follows:

                                                                Net
                                                            amortized
                                                           (premium)/            Net                Market
                                         Cost                discount        investments            value
      One-day certificates       $ 9,970,173,445              —              9,970,173,445       9,970,173,445
                    Total        $ 9,970,173,445              —              9,970,173,445       9,970,173,445


       Airport and Airway Trust Fund
       Investments at September 30, 2012, are non-marketable, par value intra-governmental securities with a
       cost of $10,424,961,000.




                                                      14
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                           September 30, 2012



Hazardous Substance Superfund Trust Fund
Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
follows:

                                                              Net
                                                          amortized
                                                         (premium)/         Net           Market
                                        Cost               discount     investments       value
One-day certificates        $         497,291,663             —           497,291,663     497,291,663
Notes                               2,850,416,396        (47,107,599)   2,803,308,797   2,836,048,364
             Total          $ 3,347,708,059              (47,107,599)   3,300,600,460   3,333,340,027


The net unrealized gain on investments is $32,739,567 at September 30, 2012.

Leaking Underground Storage Tank Trust Fund
Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
follows:

                                                               Net
                                                           amortized
                                                          (premium)/        Net           Market
                                          Cost              discount    investments       value
 One-day certificates           $      612,678,011            —          612,678,011     612,678,011
 Notes                                 714,177,000       (14,195,663)    699,981,337     707,312,197
              Total             $ 1,326,855,011          (14,195,663)   1,312,659,348   1,319,990,208


The net unrealized gain on investments is $7,330,860 at September 30, 2012.




                                                    15
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                          September 30, 2012



Oil Spill Liability Trust Fund
Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
follows:

                                                               Net
                                                           amortized
                                                          (premium)/         Net           Market
                                         Cost               discount     investments       value
   One-day certificates          $     638,354,871             —           638,354,871     638,354,871
   Bills and notes                   1,978,198,122        (29,552,401)   1,948,645,721   1,983,645,151
                 Total           $ 2,616,552,993          (29,552,401)   2,587,000,592   2,622,000,022


The net unrealized gain on investments is $34,999,430 at September 30, 2012.

Harbor Maintenance Trust Fund

Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
follows:

                                                               Net
                                                           amortized
                                                          (premium)/         Net           Market
                                         Cost               discount     investments       value
   One-day certificates          $     674,164,462             —           674,164,462     674,164,462
   Bills and notes                   6,414,789,972        (57,918,560)   6,356,871,412   6,556,470,175
                Total            $ 7,088,954,434          (57,918,560)   7,031,035,874   7,230,634,637


The net unrealized gain on investments is $199,598,763 at September 30, 2012.




                                                     16
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                 Notes to the Schedules of Selected Trust Funds
                                               September 30, 2012



      Inland Waterways Trust Fund

      Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
      follows:

                                                                     Net
                                                                 amortized
                                                                (premium)/              Net         Market
                                                   Cost           discount          investments     value
         One-day certificates                $ 48,977,843             —              48,977,843    48,977,843
                         Total               $ 48,977,843             —              48,977,843    48,977,843


      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund

      Investments at September 30, 2012, are non-marketable, market-based intra-governmental securities as
      follows:

                                                                    Net
                                                                amortized
                                                               (premium)/             Net          Market
                                                 Cost            discount         investments      value
        One-day certificates             $    16,646,393             —             16,646,393      16,646,393
        Notes                                109,999,739            213,621       110,213,360     119,975,572
                      Total              $   126,646,132            213,621       126,859,753     136,621,965


      The net unrealized gain on investments is $9,762,212 at September 30, 2012.

(3)   Change in Program Agency Equity
      Federal Supplementary Medical Insurance Trust Fund
      The change in program agency equity for the year ended September 30, 2012, is:

                        Balance, beginning of year                  $ 73,110,695,715
                        Decrease in balance                            (805,846,047)
                        Balance, end of year                        $ 72,304,849,668




                                                        17
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                         September 30, 2012




Federal Hospital Insurance Trust Fund
The change in the program agency equity for the year ended September 30, 2012, is:

                 Balance, beginning of year                   $   249,362,570,427
                 Decrease in balance                              (17,040,365,245)
                 Balance, end of year                         $   232,322,205,182




Highway Trust Fund
The change in program agency equity for the year ended September 30, 2012, is:

                  Balance, beginning of year                  $   18,674,452,396
                  Decrease in balance                             (6,953,506,415)
                  Balance, end of year                        $   11,720,945,981


The program agency equity available as of September 30, 2012, is $11,720,945,981. However, Congress
has authorized appropriations in excess of current available trust fund assets that amount to
$40,069,717,927 after considering amounts already transferred to the program agency.

Airport and Airway Trust Fund

The change in program agency equity for the year ended September 30, 2012, is:

                  Balance, beginning of year                  $    9,607,407,114
                  Increase in balance                              1,309,344,505
                  Balance, end of year                        $ 10,916,751,619


Hazardous Substance Superfund Trust Fund
The change in program agency equity for the year ended September 30, 2012, is:

                  Balance, beginning of year                  $    3,577,160,572
                  Decrease in balance                              (270,306,784)
                  Balance, end of year                        $    3,306,853,788




                                                18
                   U.S. DEPARTMENT OF THE TREASURY
       BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                          Notes to the Schedules of Selected Trust Funds
                                          September 30, 2012




Leaking Underground Storage Tank Trust Fund
The change in program agency equity for the year ended September 30, 2012, is:

                  Balance, beginning of year                   $     3,536,346,911
                  Decrease in balance                              (2,223,962,812)
                  Balance, end of year                         $    1,312,384,099


Oil Spill Liability Trust Fund
The change in program agency equity for the year ended September 30, 2012, is:

                   Balance, beginning of year                  $    2,294,207,191
                   Increase in balance                                310,020,185
                   Balance, end of year                        $    2,604,227,376


Harbor Maintenance Trust Fund
The change in program agency equity for the year ended September 30, 2012, is:

                   Balance, beginning of year                  $    6,419,751,086
                   Increase in balance                                739,521,804
                   Balance, end of year                        $    7,159,272,890


Inland Waterways Trust Fund
The change in program agency equity for the year ended September 30, 2012, is:

                   Balance, beginning of year                  $      45,321,398
                   Increase in balance                                 7,946,847
                   Balance, end of year                        $      53,268,245




                                                 19
                         U.S. DEPARTMENT OF THE TREASURY
             BUREAU OF THE PUBLIC DEBT TRUST FUND MANAGEMENT BRANCH
                                Notes to the Schedules of Selected Trust Funds
                                                September 30, 2012



      South Dakota Terrestrial Wildlife Habitat Restoration Trust Fund
      The change in program agency equity for the year ended September 30, 2012, is:

                         Balance, beginning of year                  $    132,208,686
                         Decrease in balance                               (4,575,437)
                         Balance, end of year                        $    127,633,249




(4)   Related Parties
      TFMB, on behalf of the Secretary of the Treasury, compiles amounts deposited into the trust funds, invests
      receipts in Treasury securities, redeems securities and transfers funds to the program agencies, maintains
      accounting records for receipts and disbursements of the trust funds, and reports trust fund financial
      activity to the program agencies and other interested parties. The program agencies, OTA, IRS, or FMS
      determine the amounts to be deposited in the trust funds. The program agencies determine the disposition
      of the trust fund balances.




                                                       20
